                                                       IG-01-040




AUDIT
                            MULTIPLE-AWARD CONTRACTS
REPORT
                                  September 28, 2001




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Audits at
(202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Audits. Ideas and requests can also be mailed to:

         Assistant Inspector General for Audits
         Code W
         NASA Headquarters
         Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800) 424-9183,
(800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or write to the
NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026. The
identity of each writer and caller can be kept confidential, upon request, to the extent permitted by
law.

Reader Survey

Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

DOD                Department of Defense
FAR                Federal Acquisition Regulation
FASA               Federal Acquisition Streamlining Act
OFPP               Office of Federal Procurement Policy
W                                                                                        September 28, 2001


TO:                  A/Administrator

FROM:                W/Inspector General

SUBJECT:             INFORMATION: Multiple-award Contracts
                     Assignment Number A-00-057-00
                     Report Number IG-01-040


The NASA Office of Inspector General has completed an audit of Multiple-award Contracts.1
We found that NASA’s use of multiple-award contracts complied with statutory requirements,
but at two of six NASA Centers reviewed some orders were awarded that were not in
accordance with Federal Acquisition Regulation (FAR) requirements. Specifically, the Johnson
Space Center (Johnson) and Langley Research Center (Langley) contracting officers issued 51
(49 percent) of 104 sole-source orders without obtaining competition. Therefore, NASA had
not received the benefits of competitive bids and may have paid more for goods and services
than necessary.

Background

Multiple-award contracts allow NASA to procure services and supplies more quickly using
streamlined acquisition procedures while having the advantage of competition for obtaining
optimum prices. Multiple-award contracts are usually broad in scope and often have maximum
values of millions of dollars.

The Federal Acquisition Streamlining Act of 1994 (FASA) authorizes agencies to enter into
multiple-award task and delivery order contracts for procuring services and supplies.2 FASA
establishes a general preference for using multiple-award contracts and requires that the
implementing FAR “establish a preference for awarding, to a maximum extent practicable,
multiple task or delivery order contracts for the same or similar services or property.” FAR
16.5, “Indefinite-Delivery Contracts,” incorporated the FASA guidelines.


1
    Multiple-award contracts occur when two or more contracts are awarded from one solicitation.
2
    FASA recognized that single-award contracts might be preferable in some cases.
                                                                                                 2

Recommendations

We recommended that management review the propriety of multiple-award contract sole-
source orders during the procurement management surveys and establish a specific competition
goal for multiple-award contracts. We also recommended that the Johnson and Langley Center
Directors direct contracting officers to fairly consider all contractors who submit bids for orders
under multiple-award contracts. These recommendations will ensure that NASA is fairly
considering all contractors when awarding multiple-award contract orders and will minimize the
number of sole-source orders for multiple-award contracts.

Management’s Response

Management concurred with the recommendations, provided an alternative approach for
corrective actions at Langley, and provided general comments on our finding (see Appendix D).
Management stated that the procurement management survey team would review multiple-
award order documentation during surveys and place added emphasis on the review of sole-
source order documentation. Additionally, management will encourage the maximum use of fair
opportunity among multiple-award orders and will use a 90-percent rate of competition as an
objective when assessing mission needs. Johnson has provided Center procurement personnel
three briefings on multiple-award topics, and Langley has taken measures to strengthen the
documentation of justifications related to sole-source selections.

Appropriate documentation of awards is a FAR requirement. However, management must also
take actions to ensure that sole-source orders are limited to those circumstances specified in the
FAR and that eligible contractors selected for multiple-award contracts are each fairly
considered for orders.




[original signed by]
Roberta L. Gross


Enclosure
 Final Report on Audit of Multiple-award Contracts
MULTIPLE-AWARD CONTRACTS
W                                                                        September 28, 2001


TO:             H/Associate Administrator for Procurement

FROM:           W/Assistant Inspector General for Audits

SUBJECT:        Final Report on Audit of Multiple-award Contracts
                Assignment Number A-00-057-00
                Report Number IG-01-040


The subject final report is provided for your information and use. Please refer to the Executive
Summary for the overall audit results. Our evaluation of your response is incorporated into the
body of the report. The corrective actions planned for the recommendations are responsive.
The recommendations are considered dispositioned and closed for reporting purposes.

If you have questions concerning the report, please contact Mr. Lorne A. Dear, Program
Director, Procurement Audits, at (818) 354-5634; Mr. Tony A. Lawson, Audit Program
Manager at (301) 286-6524; or Ms. Diane R. Choma, Auditor-in-Charge, at (301) 286-6443.
We appreciate the courtesies extended to the audit staff. The final report distribution is in
Appendix E.




[original signed by]
Alan J. Lamoreaux

Enclosure
                                                        2


cc:
AI/Associate Deputy Administrator
AB/Associate Deputy Administrator for Institutions
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
ARC/Director, Ames Research Center
GSFC/Director, Goddard Space Flight Center
JSC/Acting Director, Lyndon B. Johnson Space Center
KSC/Director, John F. Kennedy Space Center
LaRC/Director, Langley Research Center
MSFC/Director, George C. Marshall Space Flight Center
                                    3

bcc:
AIGA Chron
ARC/Audit Liaison Representative
GSFC/Audit Liaison Representative
JSC/Audit Liaison Representative
KSC/Audit Liaison Representative
LaRC/Audit Liaison Representative
MSFC/Audit Liaison Representative
W/L. Ball
  K. Carson
  L. Dear
  T. Lawson
  D. Choma
  S. Laccheo
  A. Larkin
  L. Lin
  N. Cipolla
Contents

Executive Summary, i

Introduction, 1

Finding and Recommendations , 2

     Consideration of Contractors for Multiple-award Contracts, 2

Appendix A - Objectives, Scope, and Methodology, 7

Appendix B – Langley Sole-Source Orders, 10

Appendix C - Johnson Sole-Source Orders, 13

Appendix D – Management’s Response, 14

Appendix E - Report Distribution, 20
                            NASA Office of Inspector General

IG-01-040                                                                           September28, 2001
 A-00-057-00

                                  Multiple-award Contracts

                                       Executive Summary

Background. Multiple-award contracts allow the Government to procure services and
supplies more quickly using streamlined acquisition procedures while using the advantage of
competition to obtain optimum prices. Multiple-award contracts are usually broad in scope and
often have maximum values of millions of dollars. However, the broad scope of these contracts
may make it difficult to establish accurate pricing during the initial contract award process.
Therefore, for the multiple awards process, selection of contractors should focus on technical
ability.

The FASA authorizes agency heads to enter into multiple-award task and delivery order
contracts for procuring services and supplies. FASA establishes a general preference for using
multiple-award contracts and requires that the implementing FAR “establish a preference for
awarding, to a maximum extent practicable, multiple task or delivery order contracts for the
same or similar services or property.” FASA also stipulates that contractors under multiple-
award contracts be provided a “fair opportunity for consideration” for award of individual task
and delivery orders (orders) costing more than $2,500. FAR 16.5, “Indefinite-Delivery
Contracts,” incorporated the FASA guidelines.

As part of its oversight duties, the NASA Headquarters Office of Procurement conducts
surveys on a 3-year cycle at NASA installations to address various procurement topics,
including organization, pre-award, post-award, and pricing.

Objectives. The overall objective of the audit was to evaluate NASA’s management of
multiple-award contracts.3 The specific objectives were to determine whether NASA’s (1) use
of multiple-award contracts was consistent with statutory and regulatory requirements and was
in the best interest of the Government and (2) management controls over the use of multiple-
award contracts were adequate.

Appendix A contains further details on the audit objectives, scope, and methodology.


3
  The audit covered multiple-award contracts at Ames Research Center (Ames), Goddard Space Flight Center
(Goddard), Lyndon B. Johnson Space Center (Johnson), John F. Kennedy Space Center (Kennedy), Langley Research
Center (Langley), and George C. Marshall Space Center (Marshall).
Results of Audit. NASA’s management of multiple-award contracts can be improved.
Although NASA’s use of multiple-award contracts was consistent with statutory requirements,
some orders awarded under these contracts were not in accordance with FAR requirements
and were not in the best interest of the Government. Specifically, at Johnson and Langley,
contracting officers issued 51 (49 percent) of 104 sole-source orders without obtaining
adequate competition. As a result, the Agency did not receive the benefits of competitive bids
and may be paying more for goods and services than necessary.

Recommendations. NASA should direct Center procurement officials to consider all
contractors for each order under multiple-award contracts, include the review of multiple-award
contracts in the procurement management surveys, and establish a competition goal for multiple-
award contracts.

Management’s Response. Management concurred with all the recommendations and plans
to or has implemented the recommended actions. Management stated that the sole-source
orders were valid but lacked proper documentation. However, management also agreed that
the majority of orders cited in the report were not subjected to the fair opportunity process
because they represented effort that was initiated, but not completed, in prior contracts.

Evaluation of Management’s Response. We consider management’s planned or
implemented actions responsive to the recommendations. Management stated that the majority
of orders were not subjected to the fair opportunity process because they represented effort
that was begun, but not completed, on prior contracts. FAR 16.505 allows contracting officers
to award sole-source orders to a single contractor under four exceptions, including:

        The order must be issued on a sole-source basis in the interest of economy and efficiency
        as a logical follow-on to an order already issued under the contract [not a prior
        contract], provided that all awardees were given a fair opportunity to be considered for
        the original order.


Management must do more than appropriately document contract files on sole-source decisions
for individual orders. To meet the intent of the FASA and the FAR, management must provide
an opportunity to fairly consider all contractors for orders issued under multiple-award
contracts. The FASA encourages agencies to “take continuous advantage of the benefits of
competition after contract award,” such as through the use of competitive orders. The FASA
further states the “continuing advantage of the competitive forces” will result in lower prices,
better quality, and improved contractor performance in satisfying customer requirements. The
FAR states that contracting officers must avoid situations in which contractors specialize in one
or a few areas within a statement of work, thus creating the likelihood that orders in those areas
will be awarded on a sole-source basis (such as the follow-on orders we questioned). Our
response to management’s general comments is in the recommendations section of the report.




                                                        ii
Introduction

Multiple-award contracts are one vehicle agencies use to procure services or supplies with
indefinite deliveries and quantities. Two or more contractors compete for orders issued under
the contracts,4 and each contractor is generally provided a fair opportunity to compete for the
orders as required by the FAR.

The FAR states that contracting officers must avoid situations in which contractors specialize
exclusively in one or a few areas within the statement of work, thus creating the likelihood that
orders in those areas will be awarded on a sole-source basis. Contracting officers must provide
each contractor a fair opportunity to be considered unless the orders qualify for an exception as
prescribed by the FAR.

The Department of Defense (DOD) Office of Inspector General found significant problems with
task orders for services including orders awarded (1) without regard to price and (2) on a sole-
source basis without providing other contractors a fair opportunity to be considered.5 In
testimony before the Subcommittee on Readiness and Management Support of the Senate
Committee on the Armed Services on Defense Acquisition, the DOD Deputy Inspector General
stated, “Multiple-award contracts are excellent tools for avoiding duplicative solicitations and
accelerating the contracting process. Their advantages are degraded, however, if the individual
task and delivery orders are inappropriately sole-sourced or poorly priced.”




4
  Task-order contracts do not have a specific quantity of services other than the minimum and maximum quantities
specified in dollars. Delivery-order contracts do not have a specific quantity of supplies other than the minimum and
maximum quantities specified in number of units. These contracts provide for the issuance of orders for the
performance of tasks or delivery of supplies during the period of the contract. Specific requirements for goods or
services are met through orders issued in accordance with the terms and conditions set forth in the respective contracts.
5
  The problems DOD identified are discussed in its report, “DOD Use of Multiple Award Task Order Contracts,”
Report Number 99-116, April 2, 1999.
Finding and Recommendations

Consideration of Contractors for Multiple-award Contracts

Contracting officers at Johnson and Langley issued 51 (49 percent) of 104 sole-source orders
without obtaining adequate competition as required by the FAR.6 Of the 51 sole-source
orders, 48 orders did not qualify for the FAR exceptions to the general requirement for
competition of awards under multiple-award contracts: 41 orders were a continuation of work
performed under prior contracts and 7 orders were follow-ons to previous orders. Also, three
orders had no sole-source justifications available in the contract files. As a result, NASA did
not receive the benefits of competitive bids and may be paying more for goods and services
than necessary.

FAR Requirements for Multiple-award Contracts

FAR 16.5, “Indefinite-Delivery Contracts,” establishes a preference for making multiple awards
of indefinite-delivery, indefinite-quantity contracts under a single solicitation for the same or
similar supplies or services. FAR 16.505, “Ordering,” states that contracting officers must
provide each contractor a fair opportunity to be considered for each order exceeding $2,500
issued under multiple task-order contracts or multiple delivery-order contracts. Contracting
officers must also document in the contract file the rationale for award and price of each order.
However, FAR 16.505 allows contracting officers to award sole-source orders to a single
contractor under the following exceptions:

         •    The agency need for the supplies or services is so urgent that providing a fair
              opportunity would result in unacceptable delays.

         •    Only one awardee is capable of providing the supplies or services required at the
              level of quality required because the supplies or services ordered are unique or highly
              specialized.

         •    The order must be issued on a sole-source basis in the interest of economy and
              efficiency as a logical follow-on to an order already issued under the
              contract, provided that all awardees were given a fair opportunity to be considered
              for the original order [emphasis added].

         •    An order is necessary to satisfy a minimum guarantee.


Sole-Source Orders Reviewed



6
 In addition, Ames awarded one order as a logical follow-on to a previous sole-source order awarded to meet the
contract minimum. Because the order represented only 1 (less than 10 percent) out of 15 orders reviewed at Ames, we
did not include the order in the finding above.


                                                           2
At Langley, we reviewed 7 solicitations and 90 sole-source orders. At Johnson, we reviewed 3
solicitations and 14 sole-source orders. The 51 questionable sole-source orders are shown
below:
                              Questionable Sole-Source Orders

                         Number of                         Number of Sole-
    NASA              Questionable Sole-                    Source Orders                          Percent
    Center             Source Orders                          Reviewed                              (a/b)
                              (a)                                (b)
Johnson                      11                                  14                                     79
Langley                      40                                  90                                     44
     Totals                  51                                 104                                     49

See Appendixes B and C for the Langley and Johnson sole-source orders that were not
awarded in accordance with the FAR.

Consideration of Contractor Experience

Sole-Source Justifications. At Langley, contracting personnel relied exclusively on the
general guidance of the FAR regarding sole-source awards and excluded contractors from
competing for orders because they had not previously performed the requested service. Sole-
source justifications stated that the orders were to complete work started under expiring
contracts or that unnecessary delays would occur if awards were made to a contractor that had
not previously performed the related task or service.

Similarly, at Johnson, contracts awarded under one of the three solicitations reviewed was a
consolidation of existing contracts, and other contractors had prior experience related to the
orders. Sole-source justifications stated that the orders were being issued as sole-source to
sustain work already in progress but not completed in the expiring contract.

Langley Contracting Officers Disputed Sole-Source Justifications. Contracting officers
may exercise broad discretion in awarding orders and should consider such factors as past
performance, quality of deliverables, cost control, price or cost, or other relevant factors. For
three awards at Langley, the contracting officers disputed the sole-source justifications 7
submitted by the technical officers that inappropriately involved a FAR exception. By
questioning the justifications, the contracting officers reversed the decision to sole-source the
orders. These challenges support the need to actively evaluate all sole-source justifications to
determine whether orders could be competitively awarded.


7
  FAR 16.505 requires the contracting officer to document in the contract file the rationale for placement and price of
each order. Contracting officers make the final award determination, but receive input from technical representatives in
the program/project offices.


                                                           3
Fair Opportunity for Consideration. The advantages of multiple-award contracts were
degraded because Johnson and Langley awarded the orders on a sole-source basis. Only in
rare circumstances should a contractor receive a sole-source order that meets the FAR
exceptions to awarding competitive orders. The contractors were not given a fair opportunity
to be considered for the 48 sole-source orders. As a result, NASA did not receive the benefits
of competitive bids, which contribute to fair and reasonable prices, and may have paid more
than necessary to receive the services or supplies.

Competition Goal for Multiple-award Contracting

To promote competition, the Office of Federal Procurement Policy (OFPP) established
performance guidelines for three Federal agencies8 to obtain competition on 90 percent of
orders costing more than $2,500.9 For the 662 orders we reviewed at 6 Centers, NASA
competed 81 percent of their orders. While this shows commitment to competition, NASA’s
percentage of competitive awards could be increased if it implemented the OFPP performance
guidelines. NASA can further ensure that Centers are complying with the performance
guidelines and properly applying FAR guidance by reviewing sole-source orders under multiple-
award contracts during the procurement management surveys. NASA Headquarters Office of
Procurement conducts procurement management surveys on a 3-year cycle at NASA
installations to determine whether the procurement process is accomplishing program
requirements in the most advantageous and appropriate manner.

Recommendations, Management’s Response, and Evaluation of
Response

The Associate Administrator for Procurement should:

    1. Review the propriety of sole-source orders under multiple-award contracts
       during the procurement management surveys.

Management’s Response. Concur. The Office of Procurement’s management survey team
will continue to review multiple-award order documentation during surveys and place an added
emphasis on the review of sole-source order documentation. See Appendix D for the complete
text of management’s comments.

Evaluation of Response. Management’s comments are responsive to the recommendation.
We consider the recommendation dispositioned and closed for reporting purposes.



8
  This performance guideline was established in 1996 for the Department of Transportation, the National Institutes of
Health, and the Defense Information Systems Agency.
9
  The OFPP guideline was identified in the General Accounting Office report GAO/NSIAD 98-215, “Acquisition
Reform: Multiple-award Contracting at Six Federal Organizations,” September 1998.


                                                          4
    2. Establish a specific competition goal (percentage of orders competed) similar to
       OFPP’s goal for multiple-award contracts.

Management’s Response. Concur. Management will encourage the maximum use of fair
opportunity among multiple-award orders where appropriate. Management will also encourage
the Centers to utilize, as an objective, a 90-percent rate of competition among multiple-award
orders (see Appendix D).

Evaluation of Response. Management’s comments are responsive to the recommendation.
We consider the recommendation dispositioned and closed for reporting purposes.

3. The Director, Johnson Space Center should direct contracting officers to fairly
consider all contractors who submit bids for each order under multiple-award contracts
as required by FAR.

Management’s Response. Concur. In conjunction with Recommendation 1, Johnson has
held several briefings for Center procurement personnel addressing multiple-award topics.

Evaluation of Response. The actions taken by management are responsive to the
recommendation. We consider the recommendation dispositioned and closed for reporting
purposes.

4. The Director, Langley Research Center should direct contracting officers to
appropriately document all facts, including judgments and assumptions for conclusions
as to best value when implementing FAR guidance for justifying sole-source selections
under multiple-award contracts.

Management’s Response. Concur. In conjunction with Recommendation 1, Langley has
taken measures to strengthen documentation of justifications related to multiple-award contract
sole-source order selections.

Evaluation of Response. The actions taken by management are responsive to the
recommendation. We consider the recommendation dispositioned and closed for reporting
purposes.

Langley’s decision to appropriately document all facts regarding sole-source selections is
required by FAR 16.505(b)(4). However, even if orders we identified as questionable were
appropriately documented as to the selection rationale, we would still have taken exception to
those orders that were follow-on orders to previous contracts. Both Johnson and Langley
identified the following additional factors, which contributed to the issuance of sole-source
orders for the contracts they reviewed.




                                               5
     •   The period of performance was expiring under the previous contracts; however, the
         effort involved was not completed.

     •   The effort required under the orders was consistent with the scope of the new contracts.

     •   The effort required was technically complex, and competition of the orders would have
         disrupted critical program milestones.

     •   The selected contractors were the only responsible sources able to continue and
         complete the effort without major impacts to the program.

We agree that complexity and impact to program schedules may be valid exceptions to the
multiple-award process. The Agency’s rationale 10 for issuing the work as sole-source orders
indicates that these contracts were probably not suitable candidates for multiple-award
contracts in accordance with FAR Sections 16.504(c)(1)(ii)(A) and 16.504(c)(1)(ii)(B).

     •   FAR 16.504(c)(1)(ii)(A) states:

                   The contracting officer must avoid situations in which awardees specialize
                   exclusively in one or a few areas within the statement of work, thus creating the
                   likelihood that orders in those areas will be awarded on a sole-source basis. . . .


     •   FAR 16.504(c)(1)(ii)(B) states:

                   The contracting officer must not use the multiple-award approach if . . . only
                   one contractor is capable of providing performance at the level of quality
                   required because the supplies or services are unique or highly specialized.


Management conducted its own analysis of two of the contracts we had reviewed. The two
contracts involved issuing sole-source orders as a way to accomplish previous contract efforts,
which is not consistent with the multiple-award approach identified in the FAR. The more fitting
instrument may have been a separate follow-on contract to complete the effort.

Further, management responded stated that “subject(ing) these orders to the fair opportunity
process would have potentially amounted to meaningless competitions, since the initial
contractor would have had an unfair competitive advantage.” This statement contradicts the
FAR, which requires that all contractors be given a fair opportunity to compete on individual
orders under the multiple-award contracts.




10
  The rationale was that the work was a continuation of previously incomplete efforts under separate contracts and
that the contractors were the “only responsible sources able to continue and complete the effort.”


                                                           6
              Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective of the audit was to evaluate NASA’s management of multiple-award
contracts. The specific objectives were to determine whether NASA’s (1) use of multiple-
award contracts was consistent with statutory and regulatory requirements and was in the best
interest of the Government and (2) management controls over the use of multiple-award
contracts were adequate.

Scope and Methodology

We limited our review to indefinite delivery/indefinite quantity contracts at the NASA Centers
visited. We relied on the individual NASA Centers to provide data on their open and active
universe of multiple-award indefinite delivery/indefinite quantity contracts.

During the audit, we:

•   Reviewed open and active NASA multiple-award indefinite delivery/indefinite quantity
    contracts as of September 2000 at Goddard, Johnson, and Langley and as of December
    2000 at Ames, Kennedy, and Marshall.

•   Reviewed multiple-award indefinite delivery/indefinite quantity contract orders to determine
    whether they were competed or issued on a sole-source basis, all contractors were given a
    fair opportunity to compete, preferred contractors were not used, awards to other than the
    lowest bidder were justified, and price was an award consideration.

•   Interviewed contracting officers and contracting officer’s technical representatives, as
    necessary.




                                                 7
Appendix A

At the six Centers visited, we completed a 100-percent review of open multiple-award
indefinite delivery/indefinite quantity contracts shown below.

                    Universe of Multiple-award Contracts and Orders

                                                                               D. Number of
                    A. Number of                           C. Number of
                                       B. Number of                             Sole-Source
     Center           Contracts                             Sole-Source
                                      Orders Reviewed                             Orders
                      Reviewed                                Orders1
                                                                                Questioned2
Ames                      14                 88                  15                   1
Goddard                   20                 91                  13                   0
Johnson                   17                 59                  14                  11
Kennedy                   11                 33                    9                  0
Langley                   27                366                  90                  40
Marshall                   6                 25                    0                  0
      TOTALS              95                662                 141                  52
   Award Values                          $352,871,955       $139,843,690         $8,677,950

1
 The “Number of Sole-Source Orders” is included in Column B, “Number of Orders Reviewed.”
2
 The “Number of Sole-Source Orders Questioned” is included in Column C, “Number of Sole-
Source Orders.”

Management Controls Reviewed

We reviewed management controls over the use of multiple-award indefinite delivery/indefinite
quantity contracts. The documents we used to evaluate management controls were:

•   FAR 16.5, “Indefinite-Delivery Contracts,” 1996 through 2000

•   NASA FAR Supplement 1816.5, “Indefinite-Delivery Contracts”

•   Office of Federal Procurement Policy, “Best Practices for Multiple Award Task and
    Delivery Order Contracting,” July 1997

•   Procurement Information Circular, “Delivery Order and Task Order Contracts,” April 28,
    1998




                                              8
                                                                            Appendix A

•   NASA Procurement Management Survey Reports
    - Ames, August 2-13, 1999
    - Goddard, November 30 through December 10, 1998
    - Johnson, February 28 through March 10, 2000
    - Kennedy, May 10-21, 1999
    - Langley, October 11-20, 2000
    - Marshall, June 15-27, 1998

Audit Field Work

We conducted field work from September 2000 through May 2001 at Ames, Goddard,
Johnson, Kennedy, Langley, and Marshall. We performed the audit in accordance with
generally accepted government auditing standards.




                                            9
                     Appendix B. Langley Sole-Source Orders

The Langley Research Center (Langley) awarded 366 orders under 27 contracts. Langley
awarded 90 orders as sole-source orders and completed justifications for 40 (44 percent) of
the 90 orders that did not meet the intent of the Federal Acquisition Regulation. The 40 orders
are shown below:


                                               Task/Delivery      Award
  Contract               Contractor                                             Sole-Source Justification
                                                  Order           Value


Solicitation 1-064-GH.2755, Reliance Consolidated Models (three contracts awarded)
                                                                           Follow-on to Delivery Order
 NAS1-97030       Advanced Technologies, Inc.     L186R          $3,580
                                                                           L166R that was sole sourced
                                                                           Follow-on to work started under
 NAS1-97031        Dynamic Engineering, Inc.      L054R         $14,921
                                                                           NAS1-19451
                                                                           Follow-on to work started under
 NAS1-97031        Dynamic Engineering, Inc.      L057R         $71,114
                                                                           NAS1-19451
                                                                           Follow-on to work started under
 NAS1-97031        Dynamic Engineering, Inc.      L077R         $45,366
                                                                           NAS1-19351
                                                                           Contractor designed and fabricated
 NAS1-97031        Dynamic Engineering, Inc.      L085R         $14,986
                                                                           two previous models
                                                                           Follow-on to work started under
 NAS1-97031        Dynamic Engineering, Inc.      L095R        $662,686
                                                                           NAS1-19451
                                                                           Follow-on to Delivery Order
 NAS1-97031        Dynamic Engineering, Inc.      L131R         $15,053
                                                                           L057R that was sole sourced
                                                                           Follow-on to work started under
 NAS1-97031        Dynamic Engineering, Inc.      L174R         $12,593    NAS1-19151 and completed under
                                                                           Delivery Orders L057R and L095R
                                                                           Contractor completed the design
 NAS1-97031        Dynamic Engineering, Inc.      L179R          $4,628
                                                                           and fabrication under NAS1-19451
                                                                           Follow-on to Delivery Order
 NAS1-97031        Dynamic Engineering, Inc.      L221R         $51,145
                                                                           L131R that was sole sourced
                                                                           Follow-on to work started under
 NAS1-97032           Micro Craft, Inc.           L056R        $396,661
                                                                           NAS2-13471
                                                                           Follow-on to work started under
 NAS1-97032           Micro Craft, Inc.           L061R        $488,399
                                                                           NAS2-13471
                                                                           Follow-on to work started under
 NAS1-97032           Micro Craft, Inc.           L064R         $41,467
                                                                           NAS1-19452
                                                                           Follow-on to Delivery Order
 NAS1-97032           Micro Craft, Inc.           L069R        $217,165
                                                                           L056R that was sole sourced
                                                                           Follow-on to work started under
 NAS1-97032           Micro Craft, Inc.           L075R         $38,757
                                                                           NAS1-19452
                                                                           Follow-on to work started under
 NAS1-97032           Micro Craft, Inc.           L091R         $11,494
                                                                           NAS1-19452
                                                                           Follow-on to Delivery Order
                                                                           L130R that was sole sourced
 NAS1-97032           Micro Craft, Inc.           L176R         $23,531
                                                                           because of contractor's unique
                                                                           capabilities




                                                    10
                                                                                            Appendix B


                                            Task/Delivery     Award
  Contract             Contractor                                             Sole-Source Justification
                                               Order          Value


Solicitation 1-132-DS.1159, Materials and Structures Technology for Aerospace Vehicles (three contracts
awarded)
                    Boeing Commercial                                 Follow-on to work started under
 NAS1-99070                                      3         $272,658
                     Airplane Group                                   NAS1-20014

Solicitation 1-064-GGH.1684, Systems Engineering for Research Facility Integrated Systems (three
contracts awarded)
                                                                      Contractor is providing the same
 NAS1-98090       Aero Systems Engineering   1003         $77,707     equipment and software for other
                                                                      system interfaces
                                                                      Contractor is providing the same
 NAS1-98090       Aero Systems Engineering   1006         $249,842 equipment and software for other
                                                                      system models
                                                                      Follow-on to work started under
 NAS1-98090       Aero Systems Engineering   1007         $135,910
                                                                      NAS1-20001
                                                                      Contractor is providing hardware and
 NAS1-98090       Aero Systems Engineering   1008         $238,366
                                                                      software under NAS1-20001
                                                                      Contractor developed the original
 NAS1-98090       Aero Systems Engineering   1009          $9,954
                                                                      software
                                                                      Follow-on to Delivery Order 1008 that
 NAS1-98090       Aero Systems Engineering   1010         $25,633
                                                                      was sole sourced
                                                                      Follow-on to work completed under a
 NAS1-98090       Aero Systems Engineering   1011         $44,584
                                                                      previous contract
                                                                      Follow-on to work completed under a
 NAS1-98090       Aero Systems Engineering   1013         $34,156
                                                                      previous contract
                 DynCorp Information and                              Contractor possesses previous relevant
 NAS1-98091                                  1004         $42,217
                   Engineering Technology                             experience
                 DynCorp Information and                              Contractor has another contract for
 NAS1-98091                                  1005         $33,740
                   Engineering Technology                             work at the tunnel

Solicitation 1-063-DIG.1129, Flight Critical Systems Research (four contracts awarded)
                                                                        Follow-on to work started under
 NAS1-00108        Rannoch Corporation           1001       $267,858
                                                                        NAS1-99127
                                                                        Follow-on to work started under
 NAS1-00108        Rannoch Corporation           1002       $237,584
                                                                        NAS1-19214
                                                                        Follow-on to work previously
 NAS1-00108        Rannoch Corporation           1003        $23,497
                                                                        performed




                                                    11
Appendix B


                                            Task/Delivery       Award
  Contract             Contractor                                              Sole-Source Justification
                                               Order            Value


Solicitation 1-109-DF.1336, Research and Noise Control for Aircraft and Space Transportation Vehicles
(nine contracts awarded)
                 Georgia Technical Applied                             Follow-on to work completed under
 NAS1-00087                                    A001         $82,750
                       Research Corp.                                  NAS2-14307
                     Lockheed Martin                                   Follow-on to work started in previous
 NAS1-00088                                    A001         $96,032
                        Corporation                                    fiscal years
                     Lockheed Martin                                   Follow-on to work started in previous
 NAS1-00088                                    A002         $91,248
                        Corporation                                    fiscal years
                                                                       Follow-on to work started under
 NAS1-00091       Bell Helicopter, Textron      004         $72,723
                                                                       NAS1-20094
                                                                       Follow-on to ongoing work and
 NAS1-00091       Bell Helicopter, Textron      005         $276,868
                                                                       contractor is the original manufacturer
                     Boeing Advanced                                   Follow-on to work started under a
 NAS1-00092                                     002         $68,500
                    Rotorcraft Company                                 previous task
                     Boeing Advanced                                   Follow-on to work started under
 NAS1-00092                                     004         $224,783
                    Rotorcraft Company                                 NAS1-20094
                                                                       Follow-on to work started in previous
 NAS1-00094          Wyle Laboratories         D001         $88,407
                                                                       fiscal years

Solicitation 1-056-DSK.1149, Development and Application of Next Generation Structural Analysis and
Design Technologies (three contracts awarded)
                     MRJ Technology
 NAS1-98024                                   103           $57,279  No justification
                        Solutions

      Langley Total Award Value                              $4,865,842




                                                     12
                          Appendix C. Johnson Sole-Source Orders

The Johnson Space Center (Johnson) awarded 61 orders11 under 17 contracts. Johnson
awarded 14 orders as sole-source orders and completed justifications for 11 (79 percent) of
the 14 orders that did not meet the FAR requirements. The 11 orders are shown below:


                                                   Task/Delivery          Award
     Contract               Contractor                                              Sole-Source Justification
                                                      Order               Value


Solicitation 9-BE-13-09-7-28P, Extravehicular Activity (six contracts awarded)
                     Oceaneering Space                                     Follow-on to work started under
 NAS9-98013                                     901            $1,287,459
                         Systems                                           NAS9-19194
                     Oceaneering Space                                     Follow-on to work started under
 NAS9-98013                                     902             $209,471
                         Systems                                           NAS9-19194
                     Oceaneering Space                                     Follow-on to work started under
 NAS9-98013                                     903             $105,315
                         Systems                                           NAS9-19194
                     Oceaneering Space                                     Follow-on to work started under
 NAS9-98013                                     904            $1,305,579
                         Systems                                           NAS9-19194
                     Oceaneering Space
 NAS9-98013                                     905             $217,080   No justification
                         Systems
                     Oceaneering Space                                     Follow-on to work started under
 NAS9-98013                                     906             $134,888
                         Systems                                           NAS9-19194
                     Oceaneering Space                                     Follow-on to work started under
 NAS9-98013                                     907             $129,807
                         Systems                                           NAS9-19194
                     Oceaneering Space                                     Follow-on to the effort under
 NAS9-98013                                     908             $50,348
                         Systems                                           previous contract NAS9-19194
                     Oceaneering Space
 NAS9-98013                                     909              $9,240    No justification
                         Systems
                     Oceaneering Space                                     Follow-on to work started under
 NAS9-98013                                     911             $88,055
                         Systems                                           NAS9-19194
                     Oceaneering Space                                     Follow-on to work started under
 NAS9-98013                                     918             $150,000
                         Systems                                           NAS9-19194

         Johnson Total Award Value                                     $3,687,242




11
     We reviewed 59 of the 61 orders. Files were not available for two orders.




                                                             13
Appendix D. Management’s Response




               14
     Appendix D




15
Appendix D




             16
     Appendix D




17
Appendix D




             18
     Appendix D




19
                         Appendix E. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
AA/Chief of Staff
AB/Associate Deputy Administrator for Institutions
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Acting Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
R/Associate Administrator for Aerospace Technology
Y/Associate Administrator for Earth Science

NASA Centers

Director, Ames Research Center
Director, Goddard Space Flight Center
Acting Director, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
 Chief Counsel, John F. Kennedy Space Center
Director, Langley Research Center
Director, George C. Marshall Space Flight Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and



                                               20
Space




        21
                                                                                 Appendix E

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             22
                    NASA Assistant Inspector General for Auditing
                                   Reader Survey


The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Multiple-award Contracts

Report Number:                                               Report Date:


Circle the appropriate rating for the following statements.
                                                      Strongly                                Strongly
                                                                 Agree   Neutral   Disagree              N/A
                                                       Agree                                  Disagree
1.   The report was clear, readable, and logically       5         4        3         2          1       N/A
     organized.
2.   The report was concise and to the point.            5         4        3         2          1       N/A
3.   We effectively communicated the audit               5         4        3         2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5         4        3         2          1       N/A
     support the finding(s) in a balanced and
     objective manner.


Overall, how would you rate the report?

      Excellent                  Fair
      Very Good                  Poor
      Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

        Congressional Staff                          Media
        NASA Employee                                Public Interest
        Private Citizen                              Other:
        Government:              Federal:               State:         Local:


May we contact you about your comments?

Yes:                                           No:

Name:

Telephone:


Thank you for your cooperation in completing this survey.
Major Contributors to the Report

Lorne A. Dear, Program Director, Procurement Audits

Tony A. Lawson, Program Manager

Diane R. Choma, Auditor-in-Charge

Sandra L. Laccheo, Auditor

Amy L. Larkin, Auditor

Lydia C. Lin, Auditor

Joseph F. Kroener, Procurement Analyst

Nancy Cipolla, Report Process Manager

Debra Schuerger, Program Assistant
